TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                        The Customer Account Data Engine
                          Release 2.2 Posted Tax Return
                              Information Accurately



                                        October 29, 2007

                              Reference Number: 2008-40-004




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                DEPARTMENT OF THE TREASURY
                                                       WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                               October 29, 2007


 MEMORANDUM FOR COMMISSIONER, WAGE AND INVESTMENT DIVISION


 FROM:                        Michael R. Phillips
                              Deputy Inspector General for Audit

 SUBJECT:                     Final Audit Report – The Customer Account Data Engine Release 2.2
                              Posted Tax Return Information Accurately (Audit # 200740039)

 This report presents the results of our review to determine whether Customer Account Data
 Engine (CADE) Release 2.2 accurately posted tax return information, focusing on functionality
 not included in prior releases. This report is the fourth in a series of ongoing reviews of
 production releases of the CADE1 meant to determine if the deployed production versions of the
 CADE are working as designed.

 Impact on the Taxpayer
 The CADE is the new computer system for taxpayer account information. It is being
 implemented in phases and will eventually replace the current aging Master File.2 It is essential
 that the tax return information posted to the CADE is accurate because inaccurate information
 could affect subsequent activities or adjustments to taxpayer accounts. The Release 2.2 version
 of the CADE accurately posted tax return information to approximately 11 million taxpayer
 accounts. However, delays in implementing Release 2.2 prevented an additional estimated 22
 million tax returns from posting to the CADE. As such, many taxpayers did not receive the
 benefits the CADE provides, such as faster refunds.


 1
   Prior reports were Individual Income Tax Return Information Was Accurately and Timely Posted to the Customer
 Account Data Engine (Reference Number 2005-40-109, dated July 2005), Individual Income Tax Return
 Information Was Successfully Posted to the Latest Release of the Customer Account Data Engine (Reference
 Number 2006-40-134, dated August 29, 2006), and The Customer Account Data Engine Release 2.1 Generally
 Posted Tax Return Information Accurately (Reference Number 2007-40-131, dated August 10, 2007).
 2
   The Internal Revenue Service database that stores various types of taxpayer account information. This database
 includes individual, business, and employee plans and exempt organizations data.
                             The Customer Account Data Engine Release 2.2
                               Posted Tax Return Information Accurately




Synopsis
The CADE consists of current and planned databases and related applications that will
eventually replace the Internal Revenue Service (IRS) Master File. It is a critical building block
in the IRS’ modernization program that will enable the development of subsequent modernized
systems to improve customer service and compliance. The CADE is designed to post
information to taxpayers’ accounts daily rather than weekly, which will facilitate faster refunds
to taxpayers and allow IRS employees to provide improved service to taxpayers because the
employees will have up-to-date, accurate account information available.
The CADE is being implemented in a series of releases to be placed in production in the coming
years. The first CADE release began posting the simplest individual tax returns3 in July 2004.
The subject of this review, Release 2.2, began posting returns in March 2007 and contained
significant additions over prior releases, including the ability to post returns with the most
common filing statuses and the most common schedules such as those related to
self-employment.4 The IRS successfully posted approximately 11 million tax returns to the
CADE and generated approximately $11.6 billion in refunds from March through August 2007.
The IRS originally estimated that it would post 33 million returns to the CADE for the
2007 Filing Season.5 However, implementation of Release 2.2 was postponed from January to
March 2007 so the IRS could make required performance improvements and complete filing
season upgrades. Accordingly, this delay resulted in the actual number of returns posted being
approximately 22 million fewer than the original estimate.
Overall, tax return information was accepted and posted accurately to CADE accounts during the
2007 Filing Season. We reviewed samples of tax returns posted with the various attributes the
CADE can now accept, focusing primarily on the attributes that were new to Release 2.2.
However, we also verified some attributes from prior releases.6 In all cases, the tax return
information was posted to taxpayers’ accounts accurately.
The ability to accept and post returns with self-employment information was added to the CADE
on May 30, 2007. We reviewed judgmental samples of returns posted after this date that had
self-employment schedules. In all cases, the posted information was accurate, and we did not
identify any discrepancies. Also, the self-employment information being provided in a weekly
report to the United States Census Bureau was accurate. Finally, the process used to determine
the audit potential of returns posting to the CADE was adequately tested.


3
  Income Tax Return for Single and Joint Filers With No Dependents (Form 1040EZ).
4
  Profit or Loss From Business (Schedule C), Profit or Loss From Farming (Schedule F), and Self-Employment Tax
(Schedule SE).
5
  The period from January through mid-April when most individual income tax returns are filed.
6
  See Appendix V for a list of all attributes reviewed.
                                                                                                             2
                          The Customer Account Data Engine Release 2.2
                            Posted Tax Return Information Accurately



Although the information posted to the CADE was accurate, we did identify one condition that
could have resulted in $400,000 of overpaid taxes being incorrectly refunded to taxpayers.
Accounts with special processing codes that were intended to stop refunds so any overpayments
could be applied to amounts owed on related business accounts were incorrectly added to the
CADE database. However, because the CADE was not yet programmed to accept these codes,
the overpayments on these accounts would have been incorrectly refunded.
We identified this issue soon after the CADE began posting returns in March 2007 and referred it
to the CADE Project Office. The prompt corrective action taken at that time prevented these
accounts from having the overpayments refunded. However, had this condition not been
identified and corrected early, the CADE would have allowed these overpayments to refund
rather than be applied to the related balance-due accounts.

Recommendations
We made no recommendations in this report. However, key IRS management officials reviewed
the report prior to issuance and agreed with the facts and conclusions presented.
Copies of this report are also being sent to the IRS managers affected by the audit results. Please
contact me at (202) 622-6510 if you have questions or Michael E. McKenney, Assistant
Inspector General for Audit (Wage and Investment Income Programs), at (202) 622-5916.




                                                                                                  3
                                   The Customer Account Data Engine Release 2.2
                                     Posted Tax Return Information Accurately




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 4
          Tax Return Information Was Posted Accurately ..........................................Page 4
          Taxpayer Accounts With Special Conditions Were
          Incorrectly Added to the Customer Account Data Engine ...........................Page 5

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 7
          Appendix II – Major Contributors to This Report ........................................Page 10
          Appendix III – Report Distribution List .......................................................Page 11
          Appendix IV – Outcome Measure ................................................................Page 12
          Appendix V – Tax Return Attributes Reviewed...........................................Page 13
       The Customer Account Data Engine Release 2.2
         Posted Tax Return Information Accurately




               Abbreviations

CADE     Customer Account Data Engine
IRS      Internal Revenue Service
                              The Customer Account Data Engine Release 2.2
                                Posted Tax Return Information Accurately




                                             Background

The Customer Account Data Engine (CADE) is the foundation for managing taxpayer accounts
in the Internal Revenue Service’s (IRS) modernization plan. It consists of current and planned
databases and related applications that will eventually replace the IRS Master File.1 The CADE
is a critical building block in the IRS’ modernization program that will enable the development
of subsequent modernized systems to improve customer service and compliance. When fully
operational, the CADE will house tax information for more than 200 million individual and
business taxpayers.
Tax returns, both paper and electronic, are received by the IRS at various Submission Processing
sites across the country. At these sites, the tax return information is input to the IRS return
processing computer system,2 which validates certain taxpayer identifying information and
checks the tax returns for mathematical errors. After the tax return information has been
validated and errors have been corrected, the sites send the information to the IRS Computing
Centers3 to be posted to taxpayers’ accounts. In the past, this account information was posted to
the Master File, the official repository for all tax accounts.
The age and complexity of the Master File causes inaccuracies and delays in providing service to
taxpayers. Updates to taxpayers’ account information on the Master File (such as posting
payments) occur weekly, and some updates require multiple weeks to complete. Because current
data are not always available to IRS employees, taxpayers requesting help with their accounts
may be given outdated information. In contrast, the CADE is designed to post information to
taxpayers’ accounts daily rather than weekly. Taxpayers should receive refunds faster, and IRS
employees should be able to provide improved service to taxpayers because the employees will
have up-to-date, accurate account information available.
The first phase of the CADE, which is for individual taxpayer accounts, is being implemented in
a series of releases to be placed in production in the coming years. The simplest taxpayer
accounts were moved to the CADE first, and each successive release adds a more complex
segment of taxpayer accounts. The first CADE release began posting the simplest tax returns4 in
July 2004; subsequent releases have added new functionality and tax form types. The subject of
this review, Release 2.2, began posting returns in March 2007 and contained significant additions


1
  The IRS database that stores various types of taxpayer account information. This database includes individual,
business, and employee plans and exempt organizations data.
2
  Also referred to as the Generalized Mainline Framework.
3
  IRS Computing Centers support tax processing and information management through a data processing and
telecommunications infrastructure.
4
  Income Tax Return for Single and Joint Filers With No Dependents (Form 1040EZ).
                                                                                                            Page 1
                             The Customer Account Data Engine Release 2.2
                               Posted Tax Return Information Accurately



over the prior releases. This Release accepted, for the first time, the most common filing
statuses, the most common schedules, and limited dependency exemptions. Figure 1 outlines the
basic additions to Release 2.2.
                    Figure 1: Functionality Added to CADE Release 2.2

          Return
                                 Prior Releases                 Release 2.1                 Release 2.2
       Characteristics

    Tax Returns              Forms 1040EZ,                Same as prior releases      Form 1040EZ-T6
                             1040A, and 10405
    Filing Status            Single only                  Single and Head of          Single, Married
                                                          Household without           Filing Jointly,
                                                          dependents                  Married Filing
                                                                                      Separately, and Head
                                                                                      of Household
    Dependents               No dependents                No dependents               Limited dependents
    Schedules                No schedules                 Schedules A, B, and         Schedules C, D, E,
                                                          R7                          F, and SE8
    Tax Credits              Withholding credit           Withholding credit          Withholding credit
                                                                                      Credit for Federal
                                                                                      Telephone Excise
                                                                                      Tax paid
    Name Changes             No name changes              Limited name changes Same as Release 2.1

    Address Changes          Address changes on           Address changes on          Same as Release 2.1
                             return                       return, United States
                                                          Postal Service address
                                                          change updates

Source: CADE Release Content Master Plan dated October 18, 2005.


5
  U.S. Individual Income Tax Return (Form 1040 and Form 1040A).
6
  Request for Refund of Federal Telephone Excise Tax (Form 1040EZ-T).
7
  Schedule A-Itemized Deductions (Schedules A&B), Schedule B-Interest and Ordinary Dividends
(Schedules A&B), and Credit for the Elderly or the Disabled (Schedule R), along with their Form 1040A
equivalents.
8
  Profit or Loss From Business (Schedule C), Capital Gains and Losses (Schedule D), Supplemental Income and
Loss (Schedule E), Profit or Loss From Farming (Schedule F), and Self-Employment Tax (Schedule SE).
                                                                                                       Page 2
                         The Customer Account Data Engine Release 2.2
                           Posted Tax Return Information Accurately



This review was performed at the CADE Project Office in New Carrollton, Maryland, and at the
Submission Processing Site in Fresno, California, during the period March through August 2007.
The audit was conducted in accordance with Government Auditing Standards. Detailed
information on our audit objective, scope, and methodology is presented in Appendix I. Major
contributors to the report are listed in Appendix II.




                                                                                       Page 3
                                The Customer Account Data Engine Release 2.2
                                  Posted Tax Return Information Accurately




                                        Results of Review

Tax Return Information Was Posted Accurately
The IRS successfully posted approximately 11 million tax returns to the CADE and generated
approximately $11.6 billion in refunds from March through August 2007. The original estimate
for the 2007 Filing Season9 was for the IRS to post
33 million returns to the CADE. However, implementation
                                                                Approximately 11 million tax
of Release 2.2 was postponed from January to March 2007         returns posted to the CADE,
so the IRS could make required performance improvements           generating $11.6 billion in
and complete filing season upgrades. Accordingly, this          refunds from March through
delay resulted in the actual number of returns posted being             August 2007.
approximately 22 million fewer than the original estimate.
Overall, tax return information was accepted and posted accurately to CADE accounts during the
2007 Filing Season. We reviewed samples of tax returns posted with the various attributes the
CADE can now accept, focusing primarily on the attributes that were new to Release 2.2.
However, we also verified some from prior releases.10
CADE Release 2.2 accurately posted returns with all of the attributes we reviewed, and the
posted information related to the specific attributes matched the information from the sample tax
returns. In addition, we verified the following general items for every sample return: name,
address, adjusted gross income, taxable income, tax, withholding, Earned Income Tax Credit,
and refund amount. All the tax return information was posted to taxpayers’ accounts accurately.

Self-employment schedule information posted accurately
The ability to accept and post returns with self-employment information was added to the CADE
on May 30, 2007. Accordingly, we reviewed judgmental samples of returns posted after this
date that had self-employment schedules (Schedules C, F, and SE). We verified the general
information listed above on these returns, as well as the following specific information: primary
and secondary taxpayer’s Social Security income, Medicare income, and self-employment tax
amounts. In all cases, the posted information was accurate, and we did not identify any
discrepancies. Also, the self-employment information being provided in a weekly report to the
United States Census Bureau was accurate.



9
    The period from January through mid-April when most individual income tax returns are filed.
10
     See Appendix V for a list of all attributes reviewed.
                                                                                                   Page 4
                          The Customer Account Data Engine Release 2.2
                            Posted Tax Return Information Accurately



The audit scoring process used by the CADE worked as intended
CADE Release 2.2 also included other functionality not directly related to the information on a
taxpayer’s account. One of these items was an expanded scoring process used to determine the
audit potential of the returns being posted. This process has been performed by previous releases
of the CADE; however, it is updated with each release because information from the additional
tax form types and schedules needs to be added to the scoring process.
Because the IRS tested this revised process extensively, we validated its test methodology and
results rather than performing detailed testing of the process. Our validation showed the testing
methodology to be comprehensive. The test results appear to be accurate and support the IRS’
conclusion that the expanded audit scoring process worked as intended.

Taxpayer Accounts With Special Conditions Were Incorrectly Added
to the Customer Account Data Engine
Due to the inclusion of some accounts with special conditions on the CADE, approximately
$400,000 in overpaid taxes would have been incorrectly refunded to taxpayers. These
overpayments should have been applied to other taxes owed
by the taxpayers.
Taxpayer accounts are marked with freeze codes if they              Approximately $400,000 in
require special processing. These freeze codes are used for a        refunds would have been
                                                                    issued incorrectly due to a
variety of reasons, including to stop a refund from being               programming error.
issued if there is a pending additional assessment on the
taxpayer’s account or if there is a balance due on a related
account.
Some accounts with a freeze code that indicated the taxpayer had a tax liability on a related
business account were incorrectly added to the CADE. Normally this freeze code holds any
overpayment credit(s) from refunding so the credit(s) can be applied to the business tax liability.
However, in the case of the CADE, the overpayments were not frozen because the CADE had
not yet been programmed to allow freeze codes and the overpayments would have been
refunded.
We identified this issue soon after the CADE began posting returns and referred it to the CADE
Project Office. The prompt corrective action taken at that time prevented these accounts from
having refunds issued incorrectly. However, the CADE would have released the refunds from
these accounts if the situation had not been identified and corrected.
At the time we identified this issue, many of the accounts with freeze codes did not have Tax
Year 2006 returns posted yet. Accordingly, we delayed performing an analysis of the amount of
overpayments that would have been incorrectly refunded until the end of the audit. We
identified 664 accounts that had the specific freeze condition with a posted Tax Year 2006 return
                                                                                             Page 5
                                    The Customer Account Data Engine Release 2.2
                                      Posted Tax Return Information Accurately



as of the week ended July 20, 2007. Of these returns, 338 had overpayments totaling
approximately $400,000 that would have been incorrectly refunded to the taxpayers.11
Only accounts meeting specific criteria should be added to the CADE. However, in this case, a
programming error resulted in accounts with these freeze conditions being incorrectly included
in the CADE.
Management Action: We reported this issue to the CADE Project Office on April 12, 2007, and
it took immediate corrective action. The accounts with freeze codes were transferred from the
CADE back to the Master File, which enabled the freeze codes to work as intended. In addition,
the CADE Business Assurance Executive stated that the programming would be reviewed to
identify and correct what caused these accounts to be included in the CADE.




11
     See Appendix IV for details.
                                                                                         Page 6
                              The Customer Account Data Engine Release 2.2
                                Posted Tax Return Information Accurately



                                                                                                Appendix I

         Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether CADE Release 2.2 accurately
posted tax return information, focusing on functionality not included in prior releases.
Specifically, we:
I.      Determined whether tax return information was accurately posted to the CADE.
        A. Obtained computer extracts of all 833,502 returns processed by the Submission
           Processing Sites in Fresno, California, and Austin, Texas, that were posted to the
           CADE during the weeks of March 26 and April 9, 2007. We validated the data from
           our computer extract by examining a random sample of 40 records. The validation
           test results demonstrated the data were reliable and could be used to meet the
           objectives of this audit.
        B. Selected judgmental samples from the population identified in Step I.A. We used
           judgmental samples because we were trying to identify systemic processing problems
           and did not plan to project our outcomes. We selected a total of 20 individual
           judgmental samples of 40 returns each (for a total of 800 returns) with the following
           characteristics:
             1. Income Tax Return for Single and Joint Filers With No Dependents
                (Form 1040EZ) with a filing status of Single or Married Filing Jointly.
             2. Request for Refund of Federal Telephone Excise Tax (Form 1040EZ-T) with the
                Telephone Excise Tax Refund.
             3. U.S. Individual Income Tax Return (Form 1040A) with a filing status of Single,
                Married Filing Jointly, Married Filing Separately, or Head of Household.
             4. Form 1040A with Schedule 1, Schedule 3,1 or dependency exemptions.
             5. U.S. Individual Income Tax Return (Form 1040) with a filing status of Single,
                Married Filing Jointly, Married Filing Separately, or Head of Household.




1
 Interest and Ordinary Dividends for Form 1040A Filers (Schedule 1) and Credit for the Elderly or Disabled for
Form 1040A Filers (Schedule 3).
                                                                                                          Page 7
                             The Customer Account Data Engine Release 2.2
                               Posted Tax Return Information Accurately



            6. Form 1040 with Schedule A, Schedule B, Schedule D, Schedule E, Schedule R,2
               or dependency exemptions.
        C. Obtained the paper returns for the samples in Step I.B. We obtained the original data
           for electronically filed returns by accessing the Tax Return Database.3
        D. Researched the sample returns using the Integrated Data Retrieval System4 and
           compared the posted account information with the original tax return information to
           determine whether the information was posted accurately. The general return
           information verified was name, address, adjusted gross income, taxable income, tax,
           withholding, Earned Income Tax Credit, and refund amount. The specific
           information verified was the related filing status, exemptions, and schedule
           information.
        E. Obtained computer extracts of all returns processed nationally that were posted to the
           System between May 30 and June 29, 2007. The ability to post returns with
           self-employment schedules was implemented in May 2007. A total of 4,329 returns
           posted during this time period with a Schedule C and 176 returns posted with a
           Schedule F.5
            1. Validated the data from our computer extract by examining a random sample of
               20 records. The validation test results demonstrated the data were reliable and
               could be used to meet the objectives of this audit.
            2. Selected individual judgmental samples of 40 returns each (for a total of
               80 returns) that were filed with a Schedule C or Schedule F. We used judgmental
               samples because we were trying to identify systemic processing problems and did
               not plan to project our outcomes.
            3. Obtained the original return information for the samples in Step I.E.2. by
               accessing the Tax Return Database.
            4. Researched the returns using the Integrated Data Retrieval System and compared
               the posted account information with the original tax return information to
               determine whether they were posted accurately. We verified the same general
               return information as in Step I.D. The specific information verified was the



2
  Schedule A-Itemized Deductions (Schedules A&B), Schedule B-Interest and Ordinary Dividends
(Schedules A& B), Capital Gains and Losses (Schedule D), Supplemental Income and Loss (Schedule E), and Credit
for the Elderly or the Disabled (Schedule R).
3
  This database contains the original (uncorrected) tax return information for electronically filed returns.
4
  The IRS computer system capable of retrieving or updating stored information; it works in conjunction with a
taxpayer’s account records.
5
  Profit or Loss From Business (Schedule C) and Profit or Loss From Farming (Schedule F).
                                                                                                      Page 8
                              The Customer Account Data Engine Release 2.2
                                Posted Tax Return Information Accurately



                  self-employment schedule information, including Social Security and Medicare
                  incomes and taxes.
              5. Verified the posted Schedule SE6 information for those returns that had one
                 attached. There were 18 returns from the samples selected in Step I.E.2. that had
                 a Schedule SE attached.
              6. Verified whether the information included in the weekly report issued to the
                 United States Census Bureau was accurate by comparing it to the actual numbers
                 of returns posted to the CADE with the associated self-employment schedules.
                 This was accomplished by using the raw data from Step I.E.
II.       Determined whether the expanded audit scoring process used by the CADE was
          comparable to that used currently by the Master File. We obtained and evaluated
          information on the testing of the CADE scoring process to determine the audit potential
          of tax returns.
III.      Determined the cause and effect of accounts with freeze codes being included on the
          CADE.
          A. Computer identified all 1,366 accounts on the System as of the last week of
             February 2007 (the week prior to the start of CADE processing) that had a freeze
             code.
          B. Analyzed the types of freeze codes included on the CADE and discussed this issue
             with the CADE Project Office.
          C. Obtained a computer extract of all accounts identified in Step III.A. and determined
             whether Tax Year 2006 returns had been filed as of July 20, 2007. A total of
             664 returns had been filed as of this date. We analyzed the accounts and determined
             whether the overpayments were potentially refunded erroneously.




6
    Self-Employment Tax (Schedule SE).
                                                                                            Page 9
                        The Customer Account Data Engine Release 2.2
                          Posted Tax Return Information Accurately



                                                                           Appendix II

                Major Contributors to This Report

Michael E. McKenney, Assistant Inspector General for Audit (Wage and Investment Income
Programs)
Scott A. Macfarlane, Director
Richard J. Calderon, Audit Manager
Steven D. Stephens, Lead Auditor
Karen Fulte, Senior Auditor
Mary Jankowski, Senior Auditor
Sandra Hinton, Auditor
Arlene Feskanich, Information Technology Specialist




                                                                                   Page 10
                      The Customer Account Data Engine Release 2.2
                        Posted Tax Return Information Accurately



                                                                     Appendix III

                       Report Distribution List

Acting Commissioner C
Office of the Commissioner – Attn: Acting Chief of Staff C
Deputy Commissioner for Operations Support OS
Deputy Commissioner for Services and Enforcement SE
Chief Information Officer OS:CIO
Deputy Commissioner, Wage and Investment Division SE:W
Associate Chief Information Officer, Applications Development OS:CIO:AD
Director, Customer Account Services, Wage and Investment Division SE:W:CAS
Chief, Performance Improvement, Wage and Investment Division SE:W:S:PI
Director, Strategy and Finance, Wage and Investment Division SE:W:S:PI
Director, Submission Processing, Wage and Investment Division SE:W:CAS:SP
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Senior Operations Advisor, Wage and Investment Division SE:W:S
       Chief, GAO/TIGTA/Legislative Implementation Branch SE:S:CLD:PSP:GTL




                                                                             Page 11
                         The Customer Account Data Engine Release 2.2
                           Posted Tax Return Information Accurately



                                                                               Appendix IV

                               Outcome Measure

This appendix presents detailed information on the measurable impact that our findings will have
on tax administration. This benefit will be incorporated into our Semiannual Report to Congress.

Type and Value of Outcome Measure:
•   Revenue Protection – Actual; approximately $400,000 would have been incorrectly refunded
    to 338 taxpayers (see page 5).

Methodology Used to Measure the Reported Benefit:
We identified 1,366 accounts with freeze codes on the CADE as of the last week of
February 2007. We obtained a computer extract as of July 20, 2007, to identify whether those
1,366 taxpayers had filed Tax Year 2006 returns as of that date and determined 664 taxpayers
had filed returns.
Of the 664 taxpayers that had filed Tax Year 2006 returns, 326 had balances due or were
even-balance returns. The remaining 338 accounts had potential incorrect refunds totaling
approximately $400,000. To calculate the amount, we totaled the amounts of the overpayments
from these returns.




                                                                                        Page 12
                               The Customer Account Data Engine Release 2.2
                                 Posted Tax Return Information Accurately



                                                                                                Appendix V

                        Tax Return Attributes Reviewed

 The following is a list of CADE Release 2.2 attributes reviewed during our audit.

 Form Type1                   Attribute                           Form Type                   Attribute
     1040EZ              Single Filing Status                         1040               Single Filing Status
     1040EZ          Married Filing Jointly Filing                    1040          Married Filing Jointly Filing
                                Status                                                         Status
     1040EZ-T       Telephone Excise Tax Refund                       1040            Married Filing Separately
                                                                                            Filing Status
      1040A               Single Filing Status                        1040            Head of Household Filing
                                                                                               Status
      1040A          Married Filing Jointly Filing                    1040              Schedule A-Itemized
                                Status                                                      Deductions
                                                                                         (Schedules A&B)
      1040A           Married Filing Separately                       1040             Schedule B-Interest and
                            Filing Status                                                Ordinary Dividends
                                                                                          (Schedules A&B)
      1040A           Head of Household Filing                        1040            Capital Gains and Losses
                               Status                                                       (Schedule D)
      1040A            Interest and Ordinary                          1040            Supplemental Income and
                     Dividends for Form 1040A                                            Loss (Schedule E)
                         Filers (Schedule 1)
      1040A          Credit for the Elderly or the                    1040           Credit for the Elderly or the
                      Disabled for Form 1040A                                          Disabled (Schedule R)
                         Filers (Schedule 3)
      1040A            Dependency Exemptions                          1040            Dependency Exemptions

Source: These attributes were identified through Treasury Inspector General for Tax Administration analysis of the
CADE Release 2.2 Candidate Requirement List.



 1
  Income Tax Return for Single and Joint Filers With No Dependents (Form 1040EZ), Request for Refund of
 Federal Telephone Excise Tax (Form 1040EZ-T), U.S. Individual Income Tax Return (Form 1040A), and
 U.S. Individual Income Tax Return (Form 1040).
                                                                                                          Page 13
